WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

Skidmore

20-142
Led Zeppelin et al.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
E Please enter my appearance as Counsel of Record for all respondents.
0 There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

E I am a member of the Bar of the Supreme Court of the United States.
0 I am not presently a m;-Luber of the Bar of this Court. Should a response be requested, the response
Mr iber.
will be file b;,' a
Signature

August 17, 2020
Peter J. Anderson
(Type or print) Name
Date.

Mr.

EJ Ms.

El Mrs.

D Miss

David Wright Tremaine LLP
865 South Figueroa Street, 24th Floor
Address
90017
Los Angeles, California
Zip
City & State
Email peteranderson@dwt.com
Phone (213) 633-6800
Firm

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
CC: Alfred J. (AJ) Fluehr, Esq.

